                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A07040019                                                                      Page 1 of 1



                An allegation of plagiarism of text and figures from two source texts was brought against
         the subject1regarding an NSF proposal.2 Further examination found plagiarism from the same
         two source texts in a second proposal3by the Subject. Evidence suggested that the Subject had
         co-authored one of the two source texts.4

                 The Subject was contacted regarding the one remaining source textSand responded to the
         allegation. Evidence indicated that the Subject and the lead/corresponding author6of the source
         text were collaborators, and that the leadlcorresponding author had given the Subject permission
         to use the text and figures in question.

                    Accordingly, this case is closed and no further action will be taken.




NSF 01G Form 2 ( 1 1/02)
                                                                                                            II
